No. 20-1639

IN THE

Oupreme Court of the Either( Otate0
GEORGE K. YOUNG, JR.,
Petitioner,
v.
STATE OF HAWAII, ET AL.,
Respondents.

On Petition for a Writ of Certiorari to the
United States Court of Appeals
for the Ninth Circuit

BRIEF IN OPPOSITION

CERTIFICATE OF COMPLIANCE
As required by Supreme Court Rule 33.1(h), I certify that the document contains
8,796 words, excluding the parts of the document that are exempted by Supreme Court
Rule 33.1(d).
I declare under penalty of perjury that the foregoing is true and correct.

Executed on July 26, 2021.

Colin Case Hogan
Wilson-Epes Printing Co., Inc.

